HHS/OIG, Audit - "Review of Federal Medicaid Claims Made for
Beneficiaries in the Family Planning Benefit Program in New York State," (A-02-07-01001)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Federal Medicaid Claims Made for
Beneficiaries in the Family Planning Benefit Program in New York State," (A-02-07-01001)
May 22, 2008
Complete
Text of Report is available in PDF format (863 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
New York State improperly received Federal reimbursement
for claims made on behalf of beneficiaries enrolled in a State program that
expands Medicaid eligibility to low-income individuals.  The Family Planning
Benefit Program (FPBP) provides only Medicaid-reimbursed family planning
services, exclusive of abortions, for individuals with incomes at or below 200
percent of the Federal poverty level.
Of the 147 FPBP claims in our sample, 37 were not eligible
for Federal Medicaid reimbursement.  This occurred because:  (1) prior to May
2003, the States computerized Medicaid payment system did not adequately
identify FPBP claims that were not related to family planning; (2) some
providers incorrectly claimed services as family planning; and (3) some
providers did not properly complete a sterilization consent form.  As a result,
the State improperly received nearly $1 million in Federal Medicaid funds.
We recommended
that the State refund the overpayment, reemphasize to
providers that only family planning
services may be billed to Medicaid for FPBP beneficiaries, and reinforce guidance
regarding sterilization consent forms.  The State
generally concurred with our recommendations but indicated that it would like to
review our working papers prior to refunding improper Federal Medicaid funds.